1a
APPENDIX A
FILED
Oct 06, 2020
DEBORAH S. HUNT, CLERK
No. 19-4136
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ABIGAIL LADD; CHRISTINA
GONZALES; IDA DUENKE;
GERARDO SALDAÑA;
DAVID SALDAÑA;
MARCELINO SALDAÑA;
ALICIA ROBERTS;
MELINDA ADDENBROCK;
DEANNA MCCRATE,
Plaintiffs-Appellants,
v.
JACK MARCHBANKS,
OHIO DEPARTMENT OF
TRANSPORTATION,
Defendant-Appellee.

ORDER

2a

BEFORE: NORRIS, NALBANDIAN, and
READLER, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court.* No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF
THE COURT
s/Deborah S. Hunt
Deborah S. Hunt, Clerk
*Judge Murphy recused himself from
participation in this ruling.

3a
APPENDIX B
971 F.3d 574
UNITED STATES COURT OF APPEALS, SIXTH
CIRCUIT.
__________
No. 19-4136
__________
Abigail Ladd; Christina Gonzales; Ida Duenke;
Gerardo Saldaña; David Saldaña; Marcelino
Saldaña; Alicia Roberts; Melinda Addenbrock;
Deanna McCrate, Plaintiffs-Appellants,
v.
Jack MARCHBANKS, Ohio Department of
Transportation, Defendant-Appellee.
__________
Appeal from the United States District Court for the
Northern District of Ohio at Toledo.
No. 3:19-cv-01609—Jack Zouhary, District Judge.
__________
Argued: August 6, 2020
Decided and Filed: August 20, 2020
Rehearing En Banc Denied October 6, 2020
__________

4a
Before: NORRIS, NALBANDIAN, and READLER,
Circuit Judges.
OPINION
NALBANDIAN, Circuit Judge.
“It is not in the power of individuals to call any
state into court.” 3 Debates on the Constitution 533 (J.
Elliot ed. 1876) (James Madison). This principle of
state sovereign immunity was foundational to the
formation of our republic. Certain constitutional
provisions and acts of Congress have abrogated the
States’ sovereign immunity—and of course the States
may waive their immunity at their pleasure. But by
and large the States remain protected from private
civil suits. We held as much for takings claims brought
against states in federal court. DLX, Inc. v. Kentucky,
381 F.3d 511, 526 (6th Cir. 2004). So when the
plaintiffs here brought a takings claim against an
Ohio official and Ohio asserted its sovereign immunity
as an affirmative defense, the district court dismissed
the suit for lack of subject matter jurisdiction. Because
DLX remains the law of this circuit, we AFFIRM.
I.
Abigail Ladd, Christina Gonzales, Ida Duenke,
Gerardo Saldaña, David Saldaña, Marcelino Saldaña,
Alicia Roberts, Melinda Addenbrock, and Deanna
McCrate (collectively “Plaintiffs”) are property owners
in Hancock County, Ohio.1 In 2016, the Ohio
1 Because Plaintiffs appeal the district court’s order dismissing
their complaint under Federal Rule of Civil Procedure 12(b)(1),
we take as true the pleaded facts unrelated to our jurisdiction.
Russell v. Lundergan-Grimes, 784 F.3d 1037, 1045 (6th Cir.
2015).

5a
Department of Transportation began a construction
project on a portion of Interstate Highway SeventyFive near Plaintiffs’ properties. As a result of this
construction, storm and groundwater flooded
Plaintiffs’ properties three times and caused
significant damage. So Plaintiffs filed a federal
complaint against Jack Marchbanks, Director of the
Ohio Department of Transportation, in his official
capacity. The complaint contains two counts. First, a
claim brought directly under the Fifth Amendment to
the United States Constitution and Article I, Section
19 of the Ohio Constitution, seeking a declaratory
judgment that the flooding caused a “change in
topography [that] constitutes a taking of private
property
without
just
compensation,”
and
compensation for the same. (R. 1, Compl. at PageID #
7.) And second, a claim brought under *577 42 U.S.C.
§ 1983 seeking damages for the alleged taking.
Marchbanks moved to dismiss the complaint
under Federal Rule of Civil Procedure 12(b)(1),
because Ohio’s sovereign immunity deprived the
district court of subject matter jurisdiction, and under
Federal Rule of Civil Procedure 12(b)(6), because the
complaint fails to state a claim upon which relief can
be granted. The district court granted Marchbanks’s
motion, holding that “[t]he Eleventh Amendment
prohibits Plaintiffs from asserting these claims in
federal court.”2 (R. 17, Dismissal Order at PageID #
102.) This appeal follows.

2 The district court said only that it dismissed the complaint
“under Federal Civil Rule 12(b).” (R. 17, Dismissal Order at
PageID # 102.) Although it didn’t specify which subsection of
Rule 12(b) it ruled under, we interpret it as doing so under

6a

II.
We review a district court’s order dismissing a
complaint under Federal Rule of Civil Procedure
12(b)(1) de novo “except that, like the district court, we
do not presume the truth of factual allegations
pertaining to our jurisdiction to hear the case, and the
plaintiff still bears the burden of demonstrating
jurisdiction[.]” Russell v. Lundergan-Grimes, 784 F.3d
1037, 1045 (6th Cir. 2015).
“After independence, the States considered
themselves fully sovereign nations. ... Under
international law, then, independence ‘entitled’ the
Colonies ‘to all the rights and power of sovereign
states.’ ” Franchise Tax Bd. of Cal. v. Hyatt, ––– U.S.
––––, 139 S. Ct. 1485, 1493, 203 L.Ed.2d 768 (2019)
(quoting McIlvaine v. Coxe’s Lessee, 8 U.S. (4 Cranch)
209, 212, 2 L.Ed. 598 (1808)). And “ ‘[a]n integral
component’ of the States’ sovereignty was ‘their
immunity from private suits.’ ” Id. (quoting Fed. Mar.
Comm’n v. S.C. Ports Auth., 535 U.S. 743, 751–52, 122
S.Ct. 1864, 152 L.Ed.2d 962 (2002)). With their
ratification of the federal Constitution, the States
ceded many aspects of their sovereign authority to the
federal government—but not their immunity from
civil suit. Id. at 1497; see U.S. Const. art. I, § 10; art.
IV, §§ 1, 2. As Madison put it: “Each State, in ratifying
the Constitution, is considered as a sovereign body,
Federal Rule of Civil Procedure 12(b)(1) because “Eleventh
Amendment issues are jurisdictional in nature.” Russell, 784
F.3d at 1046.

7a
independent of all others, and only to be bound by its
own voluntary act.” The Federalist No. 39 (James
Madison). And Hamilton echoed a similar sentiment:
“It is inherent in the nature of sovereignty not to be
amenable to the suit of an individual without its
consent. This is the general sense, and the general
practice of mankind; and the exemption, as one of the
attributes of sovereignty, is now enjoyed by the
government of every State in the Union.” The
Federalist No. 81 (Alexander Hamilton) (emphasis
omitted).
That said, by ratifying the federal Constitution,
the States consented to federal court jurisdiction over
them for certain suits. For example, Article III
“provide[s] a neutral federal forum in which the States
agreed to be amenable to suits brought by other
States.” Hyatt, 139 S. Ct. at 1495 (citing U.S. Const.
art. III, § 2). And they “similarly surrendered a portion
of their immunity by consenting to suits brought
against them by the United States in federal courts.”
Id. (citing Monaco v. Mississippi, 292 U.S. 313, 328, 54
S.Ct. 745, 78 L.Ed. 1282 (1934); Fed. Mar. Comm’n,
535 U.S. at 752, 122 S.Ct. 1864). Early on, the
Supreme Court held that by ratifying Article III,
Section Two’s inclusion of cases “between a state and
citizens of another state” within the judicial power of
the United States, the States consented to federal
*578 jurisdiction over civil suits brought by private
citizens against the States. Chisholm v. Georgia, 2
U.S. (2 Dall.) 419, 420, 1 L.Ed. 440 (1793). But “[t]hat
decision precipitated an immediate furor and uproar
across the country. Congress and the States
accordingly acted swiftly to remedy the Court’s
blunder by drafting and ratifying the Eleventh

8a
Amendment.” Hyatt, 139 S. Ct. at 1495–96 (quotation
marks and citations omitted). That Amendment
makes clear: “The Judicial power of the United States
shall not be construed to extend to any suit in law or
equity, commenced or prosecuted against one of the
United States by Citizens of another State, or by
Citizens or Subjects of any Foreign State.” U.S. Const.
amend. XI. Nor do federal courts have jurisdiction
over suits against the States by their own citizens.
Hans v. Louisiana, 134 U.S. 1, 18–19, 10 S.Ct. 504, 33
L.Ed. 842 (1890).
Yet some constitutional provisions authorize
Congress to abrogate the States’ sovereign immunity.
For example, Section Five’s grant of Congressional
power to enforce the Fourteenth Amendment’s
substantive provisions permits such abrogation.
Fitzpatrick v. Bitzer, 427 U.S. 445, 456, 96 S.Ct. 2666,
49 L.Ed.2d 614 (1976). As does Article I’s grant of
legislative power to Congress over bankruptcy
matters. Cent. Va. Cmty. Coll. v. Katz, 546 U.S. 356,
378–79, 126 S.Ct. 990, 163 L.Ed.2d 945 (2006).
Notably, 42 U.S.C. § 1983 does not abrogate the
States’ sovereign immunity. Quern v. Jordan, 440
U.S. 332, 342, 99 S.Ct. 1139, 59 L.Ed.2d 358 (1979).
All in all, the States’ sovereign immunity predates the
Constitution; so unless the Constitution itself, or
Congress acting under a constitutional grant of
authority, abrogates that immunity, it remains in
place.3 Alden v. Maine, 527 U.S. 706, 713, 119 S.Ct.
3 Of course, “[a] State may waive its sovereign immunity at its
pleasure[.]” Va. Off. for Prot. & Advoc. v. Stewart, 563 U.S. 247,
253, 131 S.Ct. 1632, 179 L.Ed.2d 675 (2011). But Ohio hasn’t
done so here. It asserted its sovereign immunity in a motion to
dismiss before taking any other action that can be construed as

9a
2240, 144 L.Ed.2d 636 (1999); see William Baude,
Sovereign Immunity and the Constitutional Text, 103
Va. L. Rev. 1, 13–15 (2017).
In DLX, Inc. v. Kentucky, we held that the
States’ sovereign immunity protects them from
takings claims for damages in federal court. 381 F.3d
at 526, overruled on other grounds by San Remo Hotel,
L.P. v. City and County of San Francisco, 545 U.S.
323, 125 S.Ct. 2491, 162 L.Ed.2d 315 (2005). True, the
plaintiffs in DLX sued the Commonwealth of
Kentucky, and Plaintiffs here sued an officer of the
State of Ohio. But this formality can’t help plaintiffs
bypass sovereign immunity “ ‘when the state is the
real, substantial party in interest,’ as when the
‘judgment sought would expend itself on the public
treasury or domain, or interfere with public
administration.’ ” Stewart, 563 U.S. at 255, 131 S.Ct.
1632 (quoting Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 101 n.11, 104 S.Ct. 900, 79
L.Ed.2d 67 (1984)) (internal quotation marks and
citation omitted). Plaintiffs sued Marchbanks in his
official capacity, so the Ohio treasury is responsible for
any judgment against him. Thus, Ohio’s sovereign
immunity extends to Marchbanks. And we haven’t
overruled DLX as an en banc court. So “unless a
decision of the United States Supreme Court
mandates modification[,]” DLX forecloses Plaintiffs’
claim for damages under 42 U.S.C. § 1983. United
States v. Moody, 206 F.3d 609, 615 (6th Cir. 2000).
All of this is well-settled. But this case presents one
twist. Namely, Plaintiffs claim that the Supreme
consenting to this suit.

10a
Court’s recent decision in *579 Knick v. Township of
Scott, ––– U.S. ––––, 139 S. Ct. 2162, 204 L.Ed.2d 558
(2019), overruled DLX. They say that the Court’s use
of the terms “a government,” “the government,” and
“state officials” connotate a broad application of “and
an implicit, if not explicit, recognition by the Supreme
Court that the fact of the taking should be the critical
component of this Court’s inquiry, with little regard
for the entity conducting the tak[ing].” (Appellants’
Br. at 24.) In other words, so long as a taking has
occurred, a state cannot assert its sovereign immunity
as a defense.
The fatal flaw in Plaintiffs’ argument is that the
Court’s opinion in Knick says nothing about sovereign
immunity. And as Plaintiffs concede, the defendant in
Knick was a municipality, so it had no sovereign
immunity to assert. (Id. (“As the Opinion in Knick
dealt with the actions of a Pennsylvania township the
Court was not forced to directly address the interplay
between the Fifth Amendment’s taking clause and the
state sovereign immunity of the Eleventh
Amendment.”)); see N. Ins. Co. of N.Y. v. Chatham
County, 547 U.S. 189, 193, 126 S.Ct. 1689, 164
L.Ed.2d 367 (2006) (“[T]his Court has repeatedly
refused to extend sovereign immunity to counties.”);
Jinks v. Richland County, 538 U.S. 456, 466, 123 S.Ct.
1667, 155 L.Ed.2d 631 (2003) (“[M]unicipalities,
unlike States, do not enjoy a constitutionally protected
immunity from suit.”). Knick held only that takings
plaintiffs are no longer required to exhaust their
claims in state court before filing a federal claim—
overruling Williamson Cty. Reg’l Plan. Comm’n v.
Hamilton Bank of Johnson City, 473 U.S. 172, 105

11a
S.Ct. 3108, 87 L.Ed.2d 126 (1985)—it did not alter the
sovereign immunity framework discussed above.
In fact, the Court implies that sovereign
immunity does have a role to play in takings cases. In
reaffirming Ruckelshaus v. Monsanto Co., 467 U.S.
986, 1018 n.21, 104 S.Ct. 2862, 81 L.Ed.2d 815 (1984),
the Court notes that Congress can, as a condition of
its waiver of sovereign immunity in the Tucker Act,
require takings plaintiffs to exhaust administrative
remedies before proceeding to federal court. Knick,
139 S. Ct. at 2173–74. So the Fifth Amendment’s
Takings Clause does not abrogate sovereign
immunity. At bottom, Knick cannot be the basis for
abandoning DLX. And the only two other federal
courts of appeals to consider this argument have
reached the same conclusion. See Bay Point Props.,
Inc. v. Miss. Transp. Comm’n, 937 F.3d 454, 456 (5th
Cir. 2019); Williams v. Utah Dep’t of Corr., 928 F.3d
1209, 1214 (10th Cir. 2019).
Plaintiffs also point us to an older Supreme
Court case, First English Evangelical Lutheran
Church of Glendale v. Los Angeles County, 482 U.S.
304, 316, 107 S.Ct. 2378, 96 L.Ed.2d 250 (1987),
suggesting that footnote nine in that case directly
contradicts DLX’s holding. (Appellants’ Br. at 26–27.)
And we have said generally that a prior panel’s
opinion doesn’t control “in the unusual situation
where binding circuit precedent overlooked earlier
Supreme Court authority.” Ne. Ohio Coal. for the
Homeless v. Husted, 831 F.3d 686, 720 (6th Cir. 2016).
So even though First English predates DLX, if
Plaintiffs are correct in their interpretation of footnote
nine, First English could mandate modification of our

12a
holding in DLX. Here, however, Plaintiffs’ argument
fails.
Plaintiffs contend that in footnote nine and its
surrounding text, the First English Court suggests, in
broad terms at least, that the Fifth Amendment is
self-executing and therefore mandates a takings
remedy in federal court. But the panel in DLX can
hardly be said to have “overlooked” First English and
footnote nine. Indeed, the party seeking compensation
in DLX invoked First English to support its argument
*580 that takings claims are not barred by the States’
sovereign immunity. 381 F.3d at 527. And we rejected
it, citing footnote nine and other authorities in
support. We held that “closer examination of [First
English] reveals that [it is] concerned not with
abrogating the states’ Eleventh Amendment
immunity in federal court, but with noting that the
Fifth Amendment’s requirement of just compensation
forces the states to provide a judicial remedy in their
own courts.” Id. And in Knick, the Supreme Court also
rejected Plaintiffs’ reading of First English. It cited
footnote nine in support of its holding about when a
Takings Clause violation occurs, not against whom
and in what forum such a claim can be brought. Knick,
139 S. Ct. at 2172–73. So First English also doesn’t
require reconsideration of our holding in DLX.
Without a Supreme Court case that mandates
modification of DLX’s holding, it binds us.4 Thus,
4 Plaintiffs raise two additional arguments, but neither has
merit. First, they cite a long passage from the Supreme Court’s
decision in Citizens United v. Federal Election Commission, 558
U.S. 310, 377–78, 130 S.Ct. 876, 175 L.Ed.2d 753 (2010), and
argue that because the Constitution’s protection against

13a
Ohio’s sovereign immunity protects Marchbanks from
Plaintiffs’ § 1983 claim for damages and erodes our
subject matter jurisdiction.
III.
Plaintiffs’ other claim seeks both a declaratory
judgment and compensation. To the extent the claim
seeks compensation, it is barred for the same reasons
set forth in section two of this opinion. As for their
request for a declaratory judgment, Plaintiffs argue
that under Ex parte Young, 209 U.S. 123, 28 S.Ct. 441,
52 L.Ed. 714 (1908), Marchbanks is amenable to suit.
uncompensated takings is a fundamental right, stare decisis
cannot be “an inexorable command, nor a mechanical formula of
adherence to the latest decision[.]” (Appellants’ Reply Br. at 3–
4.) But as a panel, we have no authority to overrule the prior
decisions of another panel. Moody, 206 F.3d at 615. Second,
Plaintiffs raise a substantive argument that the Fourteenth and
Fifth Amendments together abrogate the States’ sovereign
immunity against takings claims. Plaintiffs claim that because
the Fifth Amendment “subsumes” any substantive due process
claims arising out of a physical taking, see Banks v. City of
Whitehall, 344 F.3d 550, 554 (6th Cir. 2003), Congress’
abrogation power under Section Five of the Fourteenth
Amendment extends to Fifth Amendment takings claims.
Graham v. Connor held that specific constitutional provisions
limit the breadth of the substantive due process clause, not that
those provisions “subsume” the Fourteenth Amendment’s due
process protections. 490 U.S. 386, 395, 109 S.Ct. 1865, 104
L.Ed.2d 443 (1989). But assuming arguendo that Plaintiffs’
theory is correct, their argument still fails. Fitzpatrick only
recognized that Congress can abrogate the States’ sovereign
immunity through its Fourteenth Amendment enforcement
power. 427 U.S. at 456, 96 S.Ct. 2666. Yet Plaintiffs point to no
act of Congress that purportedly abrogates the States’ sovereign
immunity against takings claims. 42 U.S.C. § 1983 didn’t do so.
Quern, 440 U.S. at 342, 99 S.Ct. 1139. And without proper
Congressional action, or constitutional abrogation, the States’
sovereign immunity remains.

14a
Ex parte Young is a clarification of when a state’s
sovereign immunity extends to shield its officers from
suit. “[W]hen ‘the state is the real, substantial party
in interest,’ as when the ‘judgment sought would
expend itself on the public treasury or domain, or
interfere with public administration[,]’ ” the state’s
sovereign immunity extends to protect its officers
from suit. Stewart, 563 U.S. at 255, 131 S.Ct. 1632
(quoting Pennhurst, 465 U.S. at 101, 104 S.Ct. 900)
(internal quotation marks and citation omitted). But
when plaintiffs seek an injunction to prevent
prospective violations of federal law, the state’s
sovereign immunity does not shield its officers. Id.
The problem here is that Plaintiffs seek *581 neither
prospective nor proper equitable relief.
“Ex parte Young cannot be used to obtain an
injunction requiring the payment of funds from the
State’s treasury[.]” Id. at 256–57, 131 S.Ct. 1632. But
that’s what Plaintiffs seek here. They ask us to “direct
Defendant Marchbanks and ODOT to initiate eminent
domain proceedings in state court.” (Appellants’ Br. at
33.) And if Plaintiffs prevail in those proceedings, the
state court will issue a compensation award that
Ohio’s treasury must pay. Ohio Rev. Code §§ 163.05,
163.14. So Plaintiffs seek an order they can use to
require Ohio to pay them for its alleged taking of their
property—the exact type of claim Stewart tells us isn’t
a proper workaround to the States’ sovereign
immunity. See Stewart, 563 U.S. at 256–57, 131 S.Ct.
1632. What’s more, Ex parte Young can only be used
to avoid a state’s sovereign immunity when a
“complaint alleges an ongoing violation of federal law
and seeks relief properly characterized as
prospective.” Verizon Md. v. Pub. Serv. Comm’n of

15a
Md., 535 U.S. 635, 645, 122 S.Ct. 1753, 152 L.Ed.2d
871 (2002) (quoting Idaho v. Coeur d’Alene Tribe of
Idaho, 521 U.S. 261, 296, 117 S.Ct. 2028, 138 L.Ed.2d
438 (1997) (O’Connor, J., joined by Scalia and Thomas,
JJ., concurring in part and concurring in judgment)).
And none of the relief Plaintiffs seek is prospective.
“[T]he entire gravamen of Plaintiff[s’] claims in this
action” is their claim for compensation for the damage
they allege the Ohio Department of Transportation
already caused. (Appellants’ Br. at 32.) Plaintiffs don’t
seek an injunction barring Marchbanks from any
further construction that would damage their
property.5 And that’s the only prospective relief that
would satisfy Ex parte Young here. So Ohio’s
sovereign immunity bars Plaintiffs’ declaratory
judgment claim as well.
Plaintiffs also claim that Ohio’s statutory
mechanism for obtaining compensation to remedy a
Takings Clause violation is unconstitutional because
it does not provide reasonable, certain, and adequate
procedures. The State says that Plaintiffs forfeited
this argument because nothing in their complaint
seeks a declaration that Ohio’s procedures for seeking
compensation for a takings claim are constitutionally
invalid. The State is correct that Plaintiffs’ present
this argument for the first time in their brief to our
5 Nor are we certain we could issue that relief. In Knick, the
Supreme Court reiterated that “[a]s long as an adequate
provision for obtaining just compensation exists, there is no basis
to enjoin the government’s action effecting a taking.” 139 S. Ct.
at 2176. And in Coles v. Granville, we held that Ohio’s statutory
mechanism for obtaining compensation to remedy a Takings
Clause violation is reasonable, certain, and adequate. 448 F.3d
853, 861–65 (6th Cir. 2006).

16a
Court, and the argument doesn’t appear in their
summary judgment briefing below.
Nevertheless, even if we were to read Plaintiffs’
complaint broadly—namely by construing their claim
that Ohio’s taking of their property violated the Fifth
Amendment as also encompassing their argument
that Ohio’s procedures for seeking compensation are
inadequate—their claim still fails. The requirement
that states provide citizens they take property from a
reasonable, certain, and adequate procedure to seek
compensation comes from Williamson County, 473
U.S. at 194, 105 S.Ct. 3108, and it’s unclear what
remains of that case after Knick. See 139 S. Ct. at 2178
(“Williamson County was not just wrong. Its reasoning
was exceptionally ill founded and conflicted with
much of our takings jurisprudence.”). It may well be
that a state only needs to provide reasonable, certain,
and adequate procedures to *582 remedy a Takings
Clause violation if it wishes to avoid a federal court
preemptively enjoining the state from taking
property. See id. at 2175–77. Regardless, when
Williamson County was good law, we held in Coles v.
Granville that Ohio’s statutory mechanism for
obtaining compensation to remedy a Takings Clause
violation does provide reasonable, certain, and
adequate procedures. 448 F.3d 853, 861–65 (6th Cir.
2006). So to the extent this inquiry is still relevant,
we’ve resolved it.6
6 To the extent Plaintiffs argue that Ohio cannot assert its
sovereign immunity in federal court when it provides inadequate
procedures (as opposed to no remedy at all) in its own courts, that
argument, too, fails. Plaintiffs cite no case, nor can we find one,
that holds as much. And while there may be a constitutional
problem if a state ever were to eliminate all procedures for

17a

Finally, the Supreme Court has made clear that
federal courts cannot enjoin state officials from
violating state law. Pennhurst, 465 U.S. at 121, 104
S.Ct. 900. So to the extent Plaintiffs seek equitable
relief against Marchbanks for violating the Ohio
Constitution, we have no authority to grant it.
IV.
For these reasons, we AFFIRM the district
court’s dismissal of Plaintiffs’ complaint for lack of
subject matter jurisdiction.

All Citations
971 F.3d 574

seeking compensation for a taking, see DLX, Inc., 381 F.3d at 521
n.7; see also Alden, 527 U.S. at 754–55, 119 S.Ct. 2240 (“The
constitutional privilege of a State to assert its sovereign
immunity in its own courts does not confer upon the State a
concomitant right to disregard the Constitution or valid federal
law.”); First English, 482 U.S. at 316 n.9, 107 S.Ct. 2378, Ohio
hasn’t done that. By complaining about the procedures that Ohio
provides, Plaintiffs necessarily concede that Ohio does provide
some procedure for seeking compensation for a taking.

18a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
WESTERN DIVISION

Abigail Ladd, et al.,

Case No. 3:19 CV 1609

Plaintiffs,
DISMISSAL ORDER
-vsJack Marchbanks,

JUDGE JACK
ZOUHARY

Director, Ohio
Department of
Transportation,
Defendant.

INTRODUCTION
Plaintiffs own properties near the Interstate 75
highway (Doc. 1 at ¶ 1). They allege that the State of
Ohio’s recent “reconstruction and widening” of the
highway caused their properties to flood three times
and rendered the properties prone to future flooding
(id. at ¶¶ 9, 12–13). In Plaintiffs’ view, the State’s
action amounts to a taking without just compensation

19a
in violation of their constitutional rights (id. at ¶¶ 29,
32).
Plaintiffs bring this official-capacity suit
against Defendant Jack Marchbanks, Director of the
Ohio Department of Transportation (id. at ¶ 8; Doc. 15
at 4). Marchbanks now seeks dismissal of the
Complaint, arguing the suit is barred by the Eleventh
Amendment (Doc. 12-1 at 2). Plaintiffs oppose (Doc.
15). This Court recently heard oral argument (NonDoc. Entry 10/11/2019).
ANALYSIS
In DLX, Inc. v. Kentucky, the Court of Appeals
held that the Eleventh Amendment prohibits lawsuits
like this one. 381 F.3d 511, 526 (6th Cir. 2004),
abrogated on other grounds by San Remo *2 Hotel,
L.P. v. City and County of San Francisco, 545 U.S. 323
(2005). Plaintiffs acknowledge as much, but they
contend DLX was overruled by Knick v. Township of
Scott, 139 S. Ct. 2162 (2019) (Doc. 15 at 10). This
argument rings hollow. Knick held that a property
owner may assert a takings claim in federal court
without first asserting the claim in state court. 139
S. Ct. at 2167. Knick did not address the Eleventh
Amendment, and it had no reason to do so -- the
defendant there was a local government, which falls
outside the Amendment’s scope, Lake Country
Estates, Inc. v. Tahoe Reg’l Planning Agency, 440 U.S.
391, 401 (1979). At least two circuits have concluded
that Knick did not change Eleventh Amendment
jurisprudence. Bay Point Props., Inc. v. Miss. Transp.
Comm’n, 937 F.3d 454, 455 (5th Cir. 2019); Williams

20a
v. Utah Dep’t of Corr., 928 F.3d 1209, 1214 (10th Cir.
2019). DLX remains good law.
As DLX recognizes, the Eleventh Amendment
does not bar claims for forward-looking, or
prospective, relief. 381 F.3d at 527 n.14. See also
Quern v. Jordan, 440 U.S. 332, 337 (1979). The
Complaint includes a request for unspecified
“declaratory relief” (Doc. 1 at ¶ 30), which Plaintiffs
characterize as prospective (Doc. 15 at 13). But
Plaintiffs fail to identify prospective relief this Court
could award. For instance, the classic example of
prospective relief is an injunction. See Verizon Md.
Inc. v. Pub. Serv. Comm’n, 535 U.S. 635, 645–46
(2002). But an injunction -- for example, requiring
the State to restore Plaintiffs’ properties -- is not
available here. See Knick, 139 S. Ct. at 2176 (“As
long as an adequate provision for obtaining just
compensation exists, there is no basis to enjoin the
government’s action effecting a taking.”); Coles v.
Granville, 448 F.3d 853, 865 (6th Cir. 2006) (“Ohio
has . . . adequate procedures for plaintiffs to pursue
compensation for an involuntary taking.”) (internal
quotation marks omitted). Nor can this Court order
Marchbanks to initiate eminent domain proceedings
in state court, as Plaintiffs urge (Doc. 15 at 13). Only
Ohio courts have that authority. See Coles, 448 F.3d
at 861, 861 n.2.
*3 CONCLUSION
The Eleventh Amendment prohibits Plaintiffs
from asserting these claims in federal court. The

21a
Complaint is therefore dismissed under Federal Civil
Rule 12(b).
IT IS SO ORDERED.
s/ Jack Zouhary
JACK ZOUHARY
U. S. DISTRICT JUDGE
October 31, 2019

